   

COMMONWEALTH OF KENTUCKY

 

September 17, 2020

Scott S. Harris

Clerk of the Court

Supreme Court of the United States
Office of the Clerk

1 First Street, NE

Washington, DC 20543-001

RE: Kentucky v. Larry Lamont White, No. 20-240 (a capital case)
Dear Mr. Harris:

Respondent, Larry Lamont White, by undersigned counsel, pursuant to
Rule 30.4, respectfully requests a thirty (30) day extension, to and including
October 28, 2020, to file a Brief in Opposition to the Commonwealth of
Kentucky’s Petition for a Writ of Certiorari from the Supreme Court of
Kentucky.

The Commonwealth of Kentucky filed a petition for a writ of certiorari
to this Court which was docketed on August 28, 2020 from the Kentucky
Supreme Court’s opinion of March 26, 2020. Because it involved a death
sentence, a Brief in Opposition is required. Undersigned counsel requests an
extension of time of thirty days to and including October 28, 2020.

This case involves the decision of the Supreme Court of Kentucky
remanding Mr. White’s case to the trial court for an evidentiary hearing after
his counsel presented sufficient evidence to question whether he suffers from
intellectual disability. The Petitioner asks this Court to find Mr. White can
waive this issue based on several letters he wrote to the Supreme Court.
Because many reasons exist on which the Petitioner's petition for certiorari
should be denied, undersigned counsel wish to file a thorough Brief in
Opposition.

Counsel has been working diligently on the Brief in Opposition.
However, counsel requests a short extension in order to allow sufficient time
for conducting additional legal research and for drafting the response to the
Commonwealth. Counsel Arnold is the Department of Public Advocacy
Division Director, managing three branches of that agency with over 55 staff.

Page 1 of 2
Counsel Schmidt is the Appeals Branch Manager, managing three units of 20
appellate attorneys and staff and Counsel Yang is a staff attorney in the
Appeals Branch. Since the Commonwealth’s Petition for Certiorari was filed,
counsel has performed work on at least 21 cases in addition to their other
duties. Counsel notes that due to the pandemic, their office is still closed to the
public and most staff are working from home. While work has continued,
counsel also has added duties related to caring for young children and assisting
with non-traditional education.

Counsel also notes he has mailed a copy of this letter to opposing counsel
on this date postage prepaid.

(pele nidt-

*KATHLEEN K. SCHMIDT
Department of Public Advocacy
5 Mill Creek Park Section 100
Frankfort, Kentucky 40601
(502) 564-8006

(502) 695-6767 (fax)

*Counsel for Respondent

TIMOTHY G. ARNOLD
Department of Public Advocacy
5 Mill Creek Park

Frankfort, Kentucky 40601
(502) 564-8006

(502) 695-6767 (fax)

*Counsel for Respondent

ERIN HOFFMAN YANG
Department of Public Advocacy
5 Mill Creek Park Section 100
Frankfort, Kentucky 40601
(502) 564-8006

(502) 695-6767 (fax)

*Counsel for Respondent

cc: Matthew Franklin Kuhn
Page 2 of 2
